NO. 20-886
IN THE

Supreme Court of the United States
THELMA G. MCCOY,

Petitioner,

v.
UNITED STATES OF AMERICA,

Respondent.
PROOF OF SERVICE
I, Rita L. Hemenway of Bateman & Slade, Inc., hereby certify that on this
twenty-ninth day of January 2021, I have served three (3) true copies of the Brief of
Amicus Curiae the National Consumer Bankruptcy Rights Center and National
Association of Consumer Bankruptcy Attorneys in Support of Petitioner by priority
mail, postage prepaid upon:
Attorneys for Petitioner
Daniel Adam Rubens
Orrick, Herrington & Sutcliffe LLP
51 W 52nd Street
New York, NY 10019
drubens@orrick.com
212-506-3679
Attorneys for Respondent
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217
Signed under the pains and penalties of perjury,
/s/

Rita L. Hemenway

Rita L. Hemenway
NOTARIZED BY:
/s/

George D. Bateman

George D. Bateman
My Commission Expires: May 30, 2025

